Steven E. Greer, M.D.
7029 Maidstone Drive
Port Saint Lucie, FL 34986
(212) 945-7252
SG@GreerJournal.com
__________________________________________________________________
May 28, 2020
VIA ELECTRONIC FILING
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

U.S. Supreme Court No. 19-1262
Steven E. Greer, M.D., Petitioner v. Dennis Mehiel, Robert
Serpico, The Battery Park City Authority, Respondents
Application for Extension of Time to File Brief in Response to
Petition for Writ of Certiorari

Dear Mr. Harris:
I am the pro se petitioner, Steven E. Greer, MD, and am writing this opposition to
the respondent’s letter motion for an extension of time to file their response brief.
Pursuant to Rule 30.4 of the Rules of the United States Supreme Court, I request that a
Supreme Court Justice adjudicate this motion and opposition.
I am still very much a journalist and activist on New York City and State matters.
For example, I am the leading voice on national radio and television exposing how
Governor Cuomo’s decision to force virus-infected elderly back into nursing homes
resulted in the murder of thousands. I am a weekly guest on The Joe Piscopo Show on
AM 970, Bernie & Sid in the Morning on 77 WABC radio, as well as Rudy Giuliani’s
show also on 77 WABC. I also appear on OANN television (links to these segments can
be found on GreerJournal.com).
However, as a result of the Battery Park City Authority’s (BPCA) retaliatory
eviction, I am now living in Florida. My ability to report on the BPCA has been stifled,
by design, because I cannot attend public board meetings from Florida. If I finally prevail
in this case, I will promptly return to Lower Manhattan and resume reporting on the
BPCA and other matters of muckraking.
As this Court will learn upon reading my writ certiorari, the BPCA retaliated
against me in response to my coverage in the press of their scandals. They barred me
from public meetings, violating my First Amendment right to equal access. They also
colluded with a wealthy real estate owner of numerous apartment buildings who rents
land from the BPCA to evict me from my home of 14-years. No reason was given for the
initial non-renewal of lease other than to claim that the apartment was not rent-protected
and they could decline renewal at will. Only years later, after I filed this federal case, did
a new team of lawyers dream up the probable cause excuse that I was somehow erratic in
1

rent payments (the real estate defendants settled with me and were removed from the
case). The lower courts incorrectly agreed with that argument despite the 2019 Supreme
Court case of Lozman that makes probable cause arguments not strong enough to defeat a
First Amendment claim (The 2d Cir. ignored my Lozman argument entirely in clear
error).
Every day that transpires is adding to the harm caused by the BPCA. My incomeearning businesses require me to be in New York to optimally operate them. My local
knowledge of Lower Manhattan becomes more and more obsolete. I no longer have the
ability to find original stories and muckrake. In these trying times, good local news
reporting is more vital than ever before.
Also, the BPCA simply does not deserve the extension of time. They are in this
pickle due to willful negligence. They waited until three days before the expiration of
their 30-days to reply to the writ to make this motion. They chose to make the bizarre
decision to change law firms at the last hour despite their previous law firm, Sher &
Tremonte, prevailing in the lower courts and knowing the case best. Senior partner Justin
Sher is admitted to the Supreme Court bar. However, the BPCA makes no effort to
explain why they changed law firms. The lawyer assigned from the new firm of Vorys,
Sater, Seymour and Pease LLP, Pamela Bresnahan, does not appear to be any sort of
Supreme Court specialist other than having bar privileges.
Finally, I am very concerned that a 30-day delay in the case will cause the
decision on this writ certiorari to be handled by the next term of the Supreme Court,
which will not begin until the Fall. Perhaps that is the real strategy in play here; my
opponents want to shift this case to a new session and delay it six-months.
For all of the above reasons, if this motion is granted, it will subject me to serious
prejudice and more harm. Please do not grant their motion. If this Court does grant the
motion, please grant only a 10-day extension.
Respectfully submitted,

Steven E. Greer, MD

2

